Audit Report




OIG-12-050
SAFETY AND SOUNDNESS: Material Loss Review of Integra
Bank, National Association
April 12, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

Causes of Integra’s Failure ..............................................................................          3
  Concentrations in Commercial Real Estate Loans ...........................................                        3
  Write-Off of Goodwill Associated with the Acquisition of Prairie Bank
  and Trust .................................................................................................       4

OCC’s Supervision of Integra Bank...................................................................                5
  OCC Appropriately Supervised Integra .........................................................                    5
  OCC Used Prompt Corrective Action Appropriately ........................................                          8

Other Matters ...............................................................................................      8
   Examination Working Papers ......................................................................               8
   Review of Bank Acquisitions .......................................................................             9
   TARP Funds Received by Integra’s Holding Company ....................................                          10

Concluding Remarks .......................................................................................        11

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................                  13
    Appendix     2:      Background........................................................................       16
    Appendix     3:      Management Response .......................................................              18
    Appendix     4:      Major Contributors to This Report .........................................              19
    Appendix     5:      Report Distribution ..............................................................       20

Abbreviations

    CRE                      commercial real estate
    LPO                      loan production offices
    FDIC                     Federal Deposit Insurance Corporation
    MRA                      matter requiring attention
    OCC                      Office of the Comptroller of the Currency
    ROE                      report of examination




                         Material Loss Review of Integra Bank National Association                              Page i
                         (OIG-12-050)
         This Page Intentionally Left Blank




Material Loss Review of Integra Bank National Association   Page ii
(OIG-12-050)
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                        April 12, 2012

                        Thomas J. Curry
                        Comptroller of the Currency

                        This report presents the results of our material loss review of the
                        failure of Integra Bank, National Association (Integra), of Evansville,
                        Indiana, and of the Office of the Comptroller of the Currency’s (OCC)
                        supervision of the institution. OCC closed Integra and appointed the
                        Federal Deposit Insurance Corporation (FDIC) as receiver on
                        July 29, 2011. Section 38(k) of the Federal Deposit Insurance Act
                        mandated this review because of the magnitude of Integra’s estimated
                        loss to the Deposit Insurance Fund.1 As of December 31, 2011, FDIC
                        estimated that loss at $205.9 million. FDIC also estimated that the
                        failure of Integra would result in a loss of $51 million to FDIC’s Debt
                        Guarantee Program (DGP)2. In addition, the Department of
                        Treasury (Treasury) expects that the $83.6 million that was provided
                        to Integra’s holding company, Integra Bank Corporation, under
                        Treasury’s Troubled Asset Relief Program (TARP) will not be repaid.

                        Our objectives were to determine the causes of Integra’s failure;
                        assess OCC’s supervision of Integra, including implementation of the
                        prompt corrective action (PCA) provisions of section 38; and make
                        recommendations for preventing such a loss in the future. To
                        accomplish these objectives, we reviewed the supervisory files and
                        interviewed officials at OCC and FDIC. We conducted our fieldwork
                        from November 2011 through February 2012. Appendix 1 contains a
                        more detailed description of our review objectives, scope, and

1
  Definitions of certain terms, which are underlined where first used in this report, are available in Treasury
Office of Inspector General (OIG) Safety and Soundness: Material Loss Review Glossary, OIG-11-065 (Apr.
11, 2011). That document is available on the OIG’s website at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.
2
  The Debt Guarantee Program is one of two limited guarantee programs provided by FDIC’s Temporary
Liquidity Guarantee Program (TLGP) which was announced October 14, 2008, and was designed to avoid
or mitigate adverse effects on financial stability. DGP guaranteed newly issued senior unsecured debt of
insured depository institutions and most U.S. holding companies.

                        Material Loss Review of Integra Bank National Association                     Page 1
                        (OIG-12-050)
                       methodology. Appendix 2 contains background information on Integra
                       and OCC’s supervision of the institution.

                       In brief, our review found that Integra failed because it pursued an
                       aggressive growth strategy which led to high concentrations in
                       commercial real estate loans (CRE). In connection with this strategy,
                       Integra paid a significant premium to acquire Prairie Bank and Trust
                       Company (Prairie), a state chartered bank in the Chicago metropolitan
                       area with weak credit administration processes and a CRE portfolio of
                       inferior asset quality. With the economic downturn, the performance
                       of Integra’s CRE loans declined, first by the former Prairie portfolio
                       then by loans originated by Integra’s loan production offices (LPO).
                       This decline in performance led to sustained loan losses and required
                       Integra to write off its entire goodwill3 balance, including goodwill that
                       was recorded when it acquired Prairie.

                       In regard to supervision, OCC provided ongoing supervision of Integra
                       through regular on-site and off-site reviews. Although OCC’s
                       supervision did not prevent a material loss to the insurance fund, we
                       concluded that its supervision of Integra was appropriate.

                       We are also reporting on three other matters regarding OCC’s
                       supervision of Integra. Specifically, as the first matter, OCC’s
                       examination working papers for Integra were not complete, a
                       deficiency we have noted in prior material loss reviews.4 As the
                       second matter, while OCC examiners reviewed Integra’s due diligence
                       performed in connection with the Prairie acquisition, OCC does not
                       have formal guidance for examiners to use when evaluating bank
                       acquisitions. In discussions with officials, OCC does not believe
                       additional guidance is necessary since OCC Division of Licensing
                       procedures address the approval of bank acquisitions. The review of
                       bank acquisitions is an area we will consider for future audit work. As
                       the third matter, we noted that in OCC’s review process for
                       recommending approval of the TARP application by Integra’s holding
                       company, certain information about Integra’s financial condition, such


3
  Goodwill is an accounting concept meaning the value of an entity over and above the value of its assets.
In a purchase transaction it can be defined as the difference between the fair value of the price paid for a
business and the aggregate of the fair values of its separable net assets. It may be carried as an intangible
fixed asset on the balance sheet.
4
  Treasury OIG, Safety and Soundness: Material Loss Review of Amcore Bank, N.A., OIG-12-035 (Dec. 28,
2011).

                       Material Loss Review of Integra Bank National Association                    Page 2
                       (OIG-12-050)
              as a potential goodwill impairment, was not included in the OCC TARP
              case decision memo. OCC officials, however, cited a number of
              factors why they considered the TARP funding appropriate.

              During our review, we noted that OCC opened an Order of
              Investigation regarding allegations of fraudulent activity by bank
              officials. We referred these matters to the Treasury Inspector
              General’s Office of Investigation.

              We reaffirm recommendations from our prior material loss reviews
              related to limits on risky concentrations and documentation of
              supervisory activity. We did not identify any new recommendations in
              this material loss review.

              We provided a draft of this report to OCC for review. In a written
              response, which is included as appendix 3, OCC stated that it agreed
              with our conclusions as to the causes of Integra’s failure.

Causes of Integra’s Failure
              Concentrations in Commercial Real Estate Loans

              In 2003, Integra’s board of directors and management initiated a
              growth strategy focused primarily in CRE lending. The bank opened
              LPOs in Cleveland, Cincinnati, Columbus, Louisville, and Nashville.
              From 2003 through 2006, while Integra’s portfolio reflected a slight
              increase in concentration of CRE loans, its total loans outstanding
              remained relatively stable. However, starting in 2007, loan growth
              accelerated with total loans increasing 39 percent during 2007 and
              2008. A major factor in this growth was Integra’s acquisition, in April
              2007, of Prairie, a state chartered bank in the Chicago area with a
              niche in commercial construction lending for small condominium
              projects. Prairie became Integra’s Chicago Banking Center.

              The purchase of Prairie significantly increased Integra’s already
              growing CRE concentrations, including a concentration in acquisition,
              development and construction (ADC) loans. OCC guidance to
              examiners provides that when the total reported loans for
              construction, land development and other land loans represents more
              than 100 percent of an institution’s total risk-based capital or when
              the total CRE loans represent more than 300 percent of total

              Material Loss Review of Integra Bank National Association       Page 3
              (OIG-12-050)
                     risk-based capital, a concentration risk exists and may need further
                     analysis.5 According to OCC, when Integra acquired Prairie in 2007,
                     the combined entity had an ADC concentration of 145 percent and
                     total CRE concentration of 308 percent. Both of these ratios continued
                     to grow with total ADC loans and total CRE loans comprising
                     239 percent and 436 percent, respectively, of Integra’s total
                     risk-based capital at December 31, 2008.

                     Prairie had weak credit administration practices and, as a whole, the
                     overall credit quality of its loan portfolio was inferior to that of
                     Integra’s. With the downturn in the economy, the performance of
                     Prairie’s portfolio deteriorated first, followed by deterioration in the
                     CRE loans originated by Integra’s LPOs. In addition, the economic
                     downturn led to a decline in the permanent financing market. As a
                     result, Integra’s ADC borrowers were unable to obtain permanent
                     financing for construction projects from other lenders so these
                     deteriorating loans remained on Integra’s books beyond what was
                     initially anticipated by the bank. As the economic downturn intensified
                     and despite participation in Treasury’s TARP program, sustained credit
                     losses depleted Integra’s capital. Additionally, beginning in the fall of
                     2008, Integra significantly increased its already elevated reliance on
                     brokered deposits for funding. When the bank fell below the PCA
                     adequately capitalized level as of December 31, 2010, Integra’s
                     access to brokered deposits was restricted.

                     Write-Off of Goodwill Associated With the Acquisition of Prairie Bank
                     and Trust

                     Integra paid a premium to acquire Prairie and in 2007 recorded
                     goodwill of approximately $79 million. As a result, Integra reported
                     goodwill at $123 million on December 31, 2007. However,
                     deteriorating economic conditions led to higher than anticipated losses
                     and lower income projections, requiring Integra to write off its entire
                     goodwill balance by December 31, 2008. This write-off, which
                     increased Integra’s losses and diminished its capital, was necessary
                     under generally accepted accounting principles, and it occurred just
                     over a year and a half after the acquisition of Prairie.



5
 OCC Bulletin 2006–46, Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices (Dec. 6, 2006)

                     Material Loss Review of Integra Bank National Association            Page 4
                     (OIG-12-050)
OCC’s Supervision of Integra
                   OCC Appropriately Supervised Integra

                   OCC identified the key risks in Integra’s operations through its on-site
                   and off-site reviews. These risks included an asset growth strategy
                   that resulted in high concentrations of CRE and weaknesses in credit
                   risk management practices. OCC timely identified and reported these
                   problems to Integra, issued enforcement actions and used its authority
                   under PCA. Based on our review of the supervisory record, we
                   concluded that OCC’s supervision of Integra was appropriate.

                   Table 1 summarizes the results of OCC’s examinations of Integra
                   from 2006 to 2011. Generally, MRAs represent the most significant
                   items reported in ROEs requiring corrective action.


    Table 1. Summary of OCC’s Integra Examinations and Enforcement Actions

                                                              Examination Results
    Date                                                         No. of
    started/type    Assets        CAMELS             No. of      suggestions or     Informal/Formal
    of exam         (billions)a   rating             MRAs        recommendations    enforcement actions
    4/16/2007
    (Full-scope     $2.7          2/222221           0             10               None
    examination)
    4/14/2008
    (Full-scope     $3.3          2/232221           2             17               None
    examination)
    11/14/2008
    Examination
                    $3.3          2/232331           3             5                None
    of Chicago
    LPO)
    11/20/2008
    (Periodic       $3.3          2/232321           0             0                None
    monitoring)
    1/5/2009
    (Liquidity
                    $3.3          2/232331           0             4                None
    review)




                   Material Loss Review of Integra Bank National Association                Page 5
                   (OIG-12-050)
                                                                               Formal agreement
                                                                               issued 5/20/2009,
2/19/2009                                                                      civil money penalty
(Expanded                                                                      issued 5/22/2009,
                    $3.3           3/343431               2        1
periodic                                                                       and individual
monitoring)                                                                    minimum capital
                                                                               ratio issued
                                                                               8/10/2009
8/12/2009
(Full-scope         $3.3           4/443432               0        3           None
examination)
5/19/2010
                                                                               Capital directive
(Full-scope         $2.9           5/554543               1        3
                                                                               issued 8/12/2010
examination)
6/9/2011
(Interim            $2.2           5/554543               0        1           None
examination)
Source: OCC supervisory documentation.
a
  Asset amounts are as of the immediately preceding quarter.


                   As early as 2004, OCC identified loan policy exceptions in Integra’s
                   CRE loan portfolio. In the 2006 and 2007 ROEs, OCC commented
                   about risks associated with Integra’s CRE strategies that resulted in
                   credit concentrations. While weaknesses were noted and
                   recommendations made in these ROEs, OCC concluded that CRE risks
                   were adequately controlled and did not issue any MRAs during this
                   time.

                   In January 2007, OCC conducted a review of Prairie in connection
                   with its proposed acquisition. In the report on this review, OCC noted
                   that the acquisition would result in a CRE concentration in the
                   combined entity that exceeded guidelines established in
                   OCC Bulletin 2006-46. In addition, OCC noted significant concerns
                   with Prairie’s credit administration processes and stated that a
                   softening in Prairie’s niche market could lead to increased levels of
                   problem loans. As a result, OCC made three credit
                   administration-related recommendations to Integra’s management.
                   OCC officials told us that they chose this method of addressing the
                   findings, as opposed to a stronger action such as an MRA or a formal
                   condition on the approval of the acquisition, because they had
                   confidence in management’s willingness and ability to address the
                   concerns when integrating Prairie into Integra.



                   Material Loss Review of Integra Bank National Association            Page 6
                   (OIG-12-050)
In the fall of 2007, Integra pursued the acquisition of another bank,
Peoples Community Bancorp (Peoples). OCC performed a review of
Peoples and determined that the acquisition should be denied or
heavily conditioned due to the potential for a negative effect on
Integra’s asset quality. Integra did not acquire Peoples.

OCC officials told us that Integra’s management made initial attempts
to address OCC’s recommendations related to the Prairie acquisition.
OCC followed-up on the recommendations and noted some progress
made by Integra. OCC’s March 10, 2008, report on a targeted review
of Integra’s Chicago Banking Center noted that, despite continuing
concerns with the credit quality of the portfolio, some strengthening in
credit administration practices had occurred. However, OCC told us
that because of the demands placed on Integra’s management by
worsening economic conditions at the time, Integra’s management
was unable to sustain improvement in credit administration practices.
In a ROE issued October 2008, OCC determined that Integra’s asset
quality was less than satisfactory and its related CAMELS component
rating was downgraded from a 2 to a 3. A number of
recommendations and an MRA were included in the ROE to address
OCC’s concerns with credit risk management, primarily in the areas of
underwriting and credit monitoring. Integra ceased originating CRE
loans in the fall of 2008. In November 2008, OCC began another
on-site review of Integra’s Chicago Banking Center which resulted in
additional credit administration-related MRAs being issued to Integra in
February 2009.

As a result of Integra’s deteriorating financial performance, OCC
expanded the scope of its December 31, 2008, quarterly monitoring
and issued a ROE in May 2009. This ROE downgraded Integra’s
CAMELS composite rating from a 2 to a 3 and designated the bank in
troubled condition. Also in conjunction its May 2009 ROE, OCC issued
a formal agreement primarily addressing Integra’s credit administration
practices and liquidity risk. In August 2009, OCC issued an individual
minimum capital ratio (IMCR).

OCC began its regularly scheduled 2009 exam in August of that year.
From that point until the bank failed, 2 years later, OCC conducted
numerous supervisory reviews, issued two ROEs, and closely
monitored the bank’s condition and efforts to rehabilitate.



Material Loss Review of Integra Bank National Association      Page 7
(OIG-12-050)
                OCC Used PCA Appropriately

                The purpose of PCA is to resolve problems of insured depository
                institutions with the least possible long-term loss to the DIF. PCA
                requires federal banking agencies to take specific actions when an
                institution’s capital drops to certain levels. PCA also gives regulators
                flexibility to supervise institutions based on criteria other than capital
                levels to help reduce deposit insurance losses caused by unsafe and
                unsound practices. OCC appropriately implemented PCA as described
                below:

                    •   On January 30, 2011, Integra filed its call report as of
                        December 31, 2010, showing it was undercapitalized. In a
                        letter dated February 3, 2011, OCC notified Integra of its
                        undercapitalized status and required the bank to submit an
                        acceptable capital restoration plan (CRP) no later than
                        March 16, 2011.

                    •   Integra submitted the CRP to OCC timely. In a letter dated
                        April 7, 2011, OCC notified Integra that it did not accept the
                        bank's CRP primarily because OCC could not determine that the
                        plan was realistic and would succeed in restoring capital.

                    •   On April 30, 2011, Integra filed its call report as of
                        March 31, 2011, showing that it was critically undercapitalized.
                        On July 29, 2011, OCC closed the bank and appointed FDIC as
                        receiver.


Other Matters
                Examination Working Papers

                According to OCC guidance, its work papers must contain all essential
                information required to support conclusions regarding supervisory
                activities. However, during our review, we noted the following
                instances in which OCC examiners did not fully document supervision
                performed in the OCC’s automated work papers system, known as
                Examiner View (EV).




                Material Loss Review of Integra Bank National Association         Page 8
                (OIG-12-050)
•   The documentation of OCC’s review of the due diligence Integra
    performed in connection with the Prairie acquisition was incomplete
    as it did not detail the nature and extent of OCC’s review.

•   The follow-up on OCC recommendations related to the Prairie
    acquisition was not documented in EV.

•   The write-ups of the field office’s analyses of Integra performed in
    connection with its holding company’s TARP application, and
    related emails, were not included in EV. The TARP application
    process is discussed in more detail below.

OCC officials agreed that documentation supporting the Prairie
acquisition follow-up should have been maintained in EV but stated
that the TARP application analysis was not documented in EV because
it was a recommendation to senior management. It was expected that
the final approval decision would be documented elsewhere within
OCC.

Review of Bank Acquisitions

When discussing the documentation of OCC’s review of Integra’s due
diligence with respect to the Prairie acquisition, OCC officials told us
that there is no formal guidance for examiners to use when evaluating
bank acquisitions. We were told it is the individual examiner’s
responsibility to evaluate the risks inherent in the proposed business
combination and document the review. While certain aspects, such as
the bank’s due diligence process may be reviewed, other aspects such
as an evaluation of the process to determine the price paid for the
acquired institution are generally not considered within the examiner’s
scope. As noted earlier in this report, OCC performed reviews in
connection with Integra’s proposed acquisitions. The Prairie
acquisition was a primary contributor to the failure of Integra.
Accordingly, we considered whether guidance for examiners on the
acquisition review process would enhance OCC’s ability to ensure a
consistent approach to the evaluation and documentation of this
process, especially when assessing the bank’s identification and
management of acquisition risk. In discussions with OCC, officials told
us that the OCC Division of Licensing has procedures in place to
provide for the review by licensing staff, supervision staff, and legal
staff of an acquisition application with licensing staff acting as the


Material Loss Review of Integra Bank National Association       Page 9
(OIG-12-050)
                      final checkpoint for ensuring the application was reviewed by all OCC
                      staff that should be involved. OCC believes it has well defined policies
                      and procedures to carry out both the statutory and regulatory criteria
                      for approving a bank acquisition. Accordingly, they believe additional
                      formal guidance is not necessary. While we accept OCC’s position
                      since our observation was based on only this bank, the review of bank
                      acquisitions is an area we will consider for future audit work

                      TARP Funds Received by Integra’s Holding Company

                      In October 2008, Integra’s holding company, Integra Bank
                      Corporation, submitted an application to participate in Treasury’s
                      TARP program. The application was considered by the TARP Capital
                      Purchase Program Council6 (Council) using September 30, 2008,
                      financial data and was recommended for approval by that body on
                      January 28, 2009. Treasury approved Integra Bank Corporation’s
                      application on February 19, 2009, and disbursed $83.5 million in
                      TARP funds on February 27, 2009. The holding company
                      subsequently infused over $60 million of these funds into Integra
                      during 2009. Integra Bank Corporation filed for bankruptcy on
                      July 30, 2011. The Office of the Special Inspector General for the
                      Troubled Asset Relief Program (SIGTARP) reported that as of
                      September 30, 2011, Integra Bank Corporation missed 7 dividend
                      payments to Treasury totaling $7.3 million. Additionally, all of
                      Treasury’s TARP investment in Integra is expected to be lost.7

                      We reviewed the OCC TARP case decision memo for Integra Bank
                      Corporation and the summary of the Council meeting where Integra’s
                      application was recommended for approval. We compared these
                      documents to the Integra analysis write-up prepared by OCC field
                      office personnel and a follow-up email prepared by the field office on
                      December 18, 2008. This email was prepared in response to questions
                      from the Deputy Comptroller serving as the OCC member on the
                      Council. The field office write-up generally mirrors the discussion of


6
  The TARP Capital Purchase Program Council was a group consisting of representatives from the four
federal banking agencies - OCC, Board of Governors of the Federal Reserve, FDIC, and the former Office of
Thrift Supervision – the Council functioned as an advisory body to Treasury and provided recommendations
to TARP decision makers within Treasury on Qualifying Financial Institutions (QFIs) whose condition or
supervisory records posed exceptions or unique issues relating to the QFI applicant’s participation in the
TARP Capital Purchase Program.
7
  SIGTARP, Quarterly Report to Congress (Oct. 27, 2011), pages 86 and 104.

                      Material Loss Review of Integra Bank National Association                Page 10
                      (OIG-12-050)
                      Integra in the case decision memo and the Council meeting summary,
                      and includes a recommendation for approval. However, the follow-up
                      email contains a discussion of the potential for additional allowance
                      for loan and lease loss provisions and goodwill impairment, as well as
                      a warning that the bank was likely to be downgraded in the next
                      quarter. These comments were not included in either the case decision
                      memo or the Council summary.

                      Integra’s financial results, as of December 31, 2008, reflected a
                      deterioration from September 30, 2008. This contributed to OCC’s
                      downgrade of the bank to a 3 CAMELS composite rating in May 2009
                      and the related determination that Integra was in troubled condition.

                      OCC officials agreed that the information contained in the follow-up
                      email did not appear in the documentation considered by the Council
                      and could not provide documentation that the email had been sent to
                      the Deputy Comptroller who requested it. However, the officials
                      commented that TARP was for banks in trouble and that an impending
                      downgrade of the institution would not have necessarily precluded
                      approval. They also told us that, at the time of the approval
                      recommendation, OCC believed that Integra was viable, even without
                      TARP funds, and this was the primary criteria for the approval. They
                      pointed out that Integra’s management had taken appropriate steps to
                      control credit risk and was not pursuing new CRE opportunities.
                      Further, they noted that the examination which led to the downgrade
                      and enforcement action did not begin in substance until after the
                      TARP funds were approved and disbursed.

Concluding Remarks
                      We reaffirm two recommendations from our prior material loss
                      reviews. First, that OCC work with its regulatory partners to determine
                      whether to propose legislation and/or change regulatory guidance to
                      establish limits or other controls for concentrations that pose an
                      unacceptable safety and soundness risk, and determine an appropriate
                      range of examiner response to high-risk concentrations.8 Second, that
                      OCC reemphasize to examiners its policy on the preparation of



8
 Treasury OIG Safety and Soundness: Material Loss Review of Union Bank, National Association, OIG-CA-
10-009 (May 11, 2010).

                      Material Loss Review of Integra Bank National Association             Page 11
                      (OIG-12-050)
                      supervision workpapers.9 We did not identify any additional
                      recommendations from this material loss review.


                                                   * * * * *

                      We appreciate the courtesies and cooperation provided to our staff
                      during the audit. If you wish to discuss the report, you may contact
                      me at (202) 927-0384. Major contributors to this report are listed in
                      appendix 4.



                      Jeffrey Dye /s/
                      Audit Director




9
 Treasury OIG Safety and Soundness: Material Loss Review of First National Bank of Nevada and First
Heritage Bank, National Association, OIG-09-033 (February 27, 2009).


                      Material Loss Review of Integra Bank National Association              Page 12
                      (OIG-12-050)
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of Integra Bank, National
                        Association (Integra), of Evansville, Indiana, in response to our
                        mandate under section 38(k) of the Federal Deposit Insurance
                        Act.10 This section provides that if the Deposit Insurance Fund
                        incurs a material loss with respect to an insured depository
                        institution, the inspector general for the appropriate federal banking
                        agency is to prepare a report to the agency that:

                        •    ascertains why the institution’s problems resulted in a material
                             loss to the insurance fund;

                        •    reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action (PCA) provisions
                             of section 38; and

                        •    makes recommendations for preventing any such loss in the
                             future.

                        At the time of Integra’s failure, section 38(k) defined a loss as
                        material if it exceeded $200 million. The Federal Deposit Insurance
                        Corporation (FDIC) initially estimated that the loss to the Deposit
                        Insurance Fund for Integra would be $170 million. In October
                        2011, FDIC notified us that they had revised the estimated loss for
                        Integra to $210.1 million. We then initiated a material loss review
                        of Integra based on the revised loss estimate. As of
                        December 31, 2011, FDIC estimated that the loss to the insurance
                        fund from Integra’s failure would be $205.9 million

                        Our objectives were to determine the causes of Integra’s failure;
                        assess the Office of the Comptroller of the Currency’s (OCC)
                        supervision of Integra, including implementation of the prompt
                        corrective action provisions of section 38; and make
                        recommendations for preventing such a loss in the future. To
                        accomplish our objectives, we conducted fieldwork at OCC’s
                        headquarters in Washington, DC, and OCC’s field office in St.
                        Louis, Missouri. We also interviewed FDIC investigators and case
                        managers, and collected and reviewed certain bank records. We
                        conducted our fieldwork from November 2011 through February
                        2012.


10
     12 U.S.C. § 1831o(k).

                        Material Loss Review of Integra Bank National Association       Page 13
                        (OIG-12-050)
Appendix 1
Objectives, Scope, and Methodology




To assess the adequacy of OCC’s supervision of Integra, we
determined (1) when OCC first identified Integra’s safety and
soundness problems, (2) the gravity of the problems, and (3) the
supervisory response OCC took to get the bank to correct the
problems. We also assessed whether OCC (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

•   We determined that the time period relating to OCC’s
    supervision of Integra covered by our audit would be from
    August 2006 through Integra’s failure on July 29, 2011. This
    period included four full-scope safety and soundness
    examinations, an expanded quarterly monitoring, and interim
    examination, as well numerous monitoring activities and
    targeted reviews.

•   We analyzed examination reports, supporting workpapers, and
    related supervisory and enforcement correspondence. We
    performed these analyses to gain an understanding of the
    problems identified, the approach and methodology OCC used
    to assess the bank’s condition, and the regulatory action OCC
    used to compel bank management to address deficient
    conditions identified during examinations. We did not conduct
    an independent or separate detailed review of the external
    auditor’s work or associated workpapers other than those
    incidentally available through the supervisory files.

•   We interviewed and discussed various aspects of Integra’s
    supervision with OCC officials, and examiners to obtain their
    perspective on the bank’s condition and the scope of the
    examinations.

•   We interviewed FDIC officials from Risk Management
    Supervision and Division of Resolution and Receivership staff
    responsible for monitoring Integra for federal deposit insurance
    purposes and its closing.

•   We reviewed reports of examination prepared by the Federal
    Reserve Bank of St. Louis for Integra’s holding company, to

Material Loss Review of Integra Bank National Association      Page 14
(OIG-12-050)
                        Appendix 1
                        Objectives, Scope, and Methodology




                            gain an understanding of its assessment of the holding
                            company’s condition.

                        •   We reviewed Integra documents inventoried by FDIC upon
                            closing the bank that were relevant to bank’s failure and OCC’s
                            supervision of the institution.

                        •   We assessed OCC’s actions based on its internal guidance and
                            requirements of the Federal Deposit Insurance Act.11

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to provide a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives.




11
     12 U.S.C. § 1811 et seq.

                        Material Loss Review of Integra Bank National Association     Page 15
                        (OIG-12-050)
Appendix 2
Background




History of Integra National Bank Association

Integra Bank, National Association (Integra) of Evansville, Indiana,
was chartered in 1850 as Canal Bank and became The National
City Bank of Evansville (National City) in 1863. During the 1990s,
National City began acquiring community banks in Indiana, Illinois
and Kentucky. The bank changed to its current name in 2000 and
maintained its headquarters in Evansville, Indiana. The bank had a
total of 55 offices with 30 in Indiana. In 2003, Integra initiated a
growth strategy in commercial real estate loans, a strategy that
ultimately resulted in its failure.

Integra was a full service community bank with trust powers
wholly owned by Integra Bank Corporation, Evansville, Indiana, a
one-bank holding company. At its peak in 2008, Integra employed
over 850 employees and held more than $3.4 billion in assets. By
June 30, 2011, about a month before it failed, Integra’s assets had
declined to approximately $2.2 billion.

OCC Assessments Paid by Integra

OCC funds its operations in part through semiannual assessments
on national banks. OCC publishes annual fee schedules, which
include general assessments to be paid by each institution based
on the institution’s total assets. If the institution is a problem bank
(i.e., it has a CAMELS composite rating of 3, 4, or 5), OCC also
applies a surcharge to the institution’s assessment to cover
additional supervisory costs. These surcharges are calculated by
multiplying the sum of the general assessment by 50 percent for
3-rated institutions or by 100 percent for 4- and 5-rated
institutions. Table 1 shows the assessments that Integra paid to
OCC from 2006 through 2011.




Material Loss Review of Integra Bank National Association        Page 16
(OIG-12-050)
Appendix 2
Background




Table 1: Assessments Paid by Integra to OCC, 2006–2011
                                                                 % of Total
       Billing Period       Exam Rating            Amount Paid   Collection
March 2006                         2                  $241,229      0.08%
September 2006                     2                   243,627      0.08%
March 2007                         2                   247,148      0.07%
September 2007                     2                   285,712      0.08%
March 2008                         2                   281,018      0.08%
September 2008                     2                   284,479      0.08%
March 2009                         2                   286,887      0.07%
September 2009                     3                   428,811      0.11%
March 2010                         4                   520,402      0.14%
September 2010                     4                   526,784      0.14%
March 2011                         5                   452,556      0.12%
Source: OCC.


Number of OCC Staff Hours Spent Examining Integra

Table 2 shows the number of OCC staff hours spent examining
Integra from 2006 to 2011.

Table 2: Number of OCC Hours Spent on Examining Integra,
2006-2011
                                       Number of
   Examination Cycle           Examination Hours
2011                                    3,700
2010                                    7,579
2009                                    6,971
2008                                    6,964
2007                                    4,683
2006                                    4,895
 Source: OCC.




Material Loss Review of Integra Bank National Association           Page 17
(OIG-12-050)
Appendix 3
Management Response




Material Loss Review of Integra Bank National Association   Page 18
(OIG-12-050)
Appendix 4
Major Contributors to This Report




James Lisle, Audit Manager
Adelia Gonzales, Auditor-in-Charge
Brandon Crowder, Auditor-in-Charge
Vicki Preston, Auditor
Olivia Scott, Auditor
Marco Uribe, Auditor
Robert Kohn, Referencer




Material Loss Review of Integra Bank National Association   Page 19
(OIG-12-050)
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

U.S. Senate

    Chairman and Ranking Member,
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member,
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member,
    Committee on Financial Services

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of Integra Bank National Association      Page 20
(OIG-12-050)
